§ &
s Hi

U

No. 21-

In The

Supreme Court of tfje fHntteb i£>tateg
Davon Nelson,
Petitioner,
v.
United States,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Brent E. Newton
Counsel of Record
Attorney at Law
19 Treworthy Road
Gaithersburg, MD 20878
(202) 975-9105
brentevannewton@gmail.com

Counsel for Petitioner

RECEIVED
AUG 1 2 2021
IuprIme'co^F.^

Pursuant to 18 U.S.C. § 3006A and Supreme Court Rule 39, the Petitioner,
Davon Nelson, asks for leave to file a Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit without pre-payment of fees or costs
and to proceed in forma pauperis.
Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding pursuant to 18 U.S.C. § 3006A. A copy
of the order of appointment is appended.

August 10, 2021

Respectfully submitted,
/s/Brent E. Newton_____
Brent E. Newton
Counsel of Record
Attorney at Law
19 Treworthy Road
Gaithersburg, MD 20878
(202) 975-9105
brentevannewton@gmail.com

Counsel for Petitioner

USCA4 Appeal: 20-4494

Filed: 12/04/2020

Doc: 14-1

Pg: 1 of 2

FILED: December 4, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4494
(1:18-cr-00592-GLR-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

DAVON NELSON
Defendant - Appellant

ORDER
The court appoints Brent Newton to represent Davon Nelson on appeal.
Counsel is referred to the CJA Payment Memorandum and the CJA eVoucher
Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher for transcript payment. Counsel must also submit a Transcript Order Form

USCA4 Appeal: 20-4494

Doc: 14-1

Filed: 12/04/2020

Pg:2of2

to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use
in maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel. If record items are not available from former
counsel, new counsel should contact the Fourth Circuit Appointments Deputy for
assistance in obtaining these items.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

